Final Audit Report No. AU 02-03 (447030)
Home < Reports < Audit Reports    Legal Services Corporation Office of Inspector General
Review of Grantee's Transfer of Funds and Compliance with Program Integrity Standards
Grantee: Central Virginia Legal Aid Society, Inc.
Recipient No. 447030
Report No. AU 02-03
Other formats: PDF 120K | Word 50K | Grantee's Comments: PDF 126K | Transmittal Letter: PDF 45K (March 18, 2002)
March 2002
TABLE OF CONTENTS
RESULTS OF AUDIT
RECOMMENDATIONS
BACKGROUND
OBJECTIVES, SCOPE, and METHODOLOGY
APPENDIX l - Grantee's Comments On Draft Report	I-1
APPENDIX II - OIG Staff Responsible for the Audit and Report	II- 1
RESULTS OF AUDIT
The Legal Services Corporation (LSC) Office of Inspector General (OIG)
conducted this audit to determine whether Central Virginia Legal Aid Society
(grantee) complied with certain requirements of 45 CFR Part 1610.  This regulation
prohibits grantees from transferring LSC funds to an organization that engages in
activities prohibited by the LSC Act and LSC appropriation acts, with one
exception.  The only exception is that LSC funds may be used to fund private
attorney involvement (PAI) activities that an organization performs for the grantee.
In addition, grantees must maintain objective integrity and independence from
organizations that engage in restricted activities.
This audit provides reasonable, but not absolute, assurance that, except for
a relatively minor subsidization, the grantee complied with Part 1610 between
January 1, 2000 and September 30, 2001.  During part of this period the grantee
had a relationship with the Legal Aid Justice Center (Justice Center) an
organization that engages in restricted activities.  The grantee maintained objective
integrity and independence from the Justice Center.  The two organizations were
legally separate entities and maintained physical and financial separation. The
grantee leased office space for its Charlottesville branch office from the Justice
Center.  The rent paid was reasonable and did not subsidize the Justice Center.  To
a limited extent, the grantee subsidized the Justice Center by providing free client
intake services.
In addition, the grantee:
did not have required certifications for part time employees; and
used a small amount of LSC grant funds to pay prohibited dues.
The OIG reviewed 40 cases that had been filed with the courts.  There were
no indications that these cases involved restricted or prohibited activities.
Limited Subsidy
The grantee used LSC funds to pay its staff that performed some intake
services for the Justice Center at its Charlottesville and Petersburg, Virginia.
offices.  The grantee's intake staff determined client eligibility, documented client
identify, determined the client's problem and referred some clients to the Justice
Center.  Client information was provided to the Justice Center.  Grantee staff at
the Charlottesville branch office had access to Justice Center attorneys' calendars
and scheduled appointments for some clients.
The OIG recognizes that the intake process is an efficient and convenient
way to serve clients, especially those that the grantee cannot assist.  However,
LSC provided funds were used to pay the intake staff and the Justice Center was
subsidized, to a limited extent.  Because of the difficulty in separating grantee
work from that done for the Justice Center, we were not able to estimate the
amount of the subsidy.  The grantee's management agreed to correct the problem
by paying the intake staff with non-LSC funds.
Certification of Part Time Attorneys
One part-time attorney, who worked for an organization that engaged in
prohibited activities, did not provide required certifications that he did not engage
in prohibited activities while paid by the grantee.  Four other part time advocates
did not document whether they were employed by another legal organization.  As a
result the grantee did not comply with 45 CFR Part 1635 requirements.
Under 45 CFR Part 1635, grantees are required to obtain certifications from
part-time advocates who also work for organizations that engage in restricted
activities.  The advocates are required to certify they did not work on prohibited
activities while being paid with LSC funds.  These certifications are required
quarterly and must be maintained by the grantee.
A part-time attorney in the Charlottesville office worked for another legal
organization that engaged in restricted activities.  Certifications covering the
quarters ended March 31 and June 30, 2001 were not obtained for this employee.
The OIG was provided documentation in which the part time attorney stated that
he maintained a clear separation between his two jobs and that he fully complied
with all LSC regulations during the period January 1 through June 30, 2001.  This
documentation was completed subsequent to the certification period and did not
meet the certification requirement.  The attorney completed a certification for the
quarter ended September 30, 2001.  The grantee's Executive Director stated that
in the future the employee would complete quarterly certifications as required by
the regulation.
Four additional part-time advocates did not document whether they were
employed by another legal organization and did not provide certifications.  The
grantee did not have a formal process for determining whether part-time advocates
were employed by organizations that engaged in restricted activities.  During the
audit, the grantee's Executive Director implemented a policy requiring all part-time
advocates to state in writing whether they also worked for another legal
organization.  The policy also states that, in the future, any staff member that
obtains employment with a legal organization must provide written notice to the
Executive Director.
The OIG did not identify any instances in which an attorney or paralegal
engaged in a restricted activity while compensated by the grantee or used grantee
resources for restricted activities.
We are not making recommendations for this finding because no violations
of the practice restrictions were found and the Executive Director took action to
preclude future violations of 45 CFR Part 1635.
Dues paid with LSC Funds
LSC funds were used to pay membership fees totaling $1,059 to a nonprofit
legal organization in 2001.  Under 45 CFR 1627, grantees are prohibited from
using LSC funds to pay membership fees to any private or nonprofit organization.
After discussion with the Executive Director, $266 was charged to non-LSC funds.
The remainder could not be changed because the accounting records had closed
and an adjustment could not be made.  Considering that the grantee's expenses for
2001 totaled over $1.5 million, the amount spent on dues was immaterial.
RECOMMENDATIONS
To correct the subsidization and dues problems, we recommend that the
grantee's management adopt procedures to ensure that non-LSC funds:
finance intake services; and
finance membership fees paid to private and non-profit organizations.
SUMMARY OF GRANTEE"S COMMENTS ON DRAFT REPORT
The grantee agreed with the audit's findings and indicated that the OIG
recommendations will be implemented.  The grantee's comments are included as
Appendix ll.
Planned Future Involvement with the Justice Center
In October 2001 when we performed the on-site work, the grantee was
finalizing a contract with the Justice Center.  The contract provided to the OIG
stipulated that the Justice Center would provide legal aid to low-income clients in
the metropolitan Richmond area for the period November 1, 2001 through June
30, 2002.  The legal aid services to be provided may include cases that the
grantee is precluded from handling by statute and regulation.  The Legal Services
Corporation of Virginia is funding the contract. The grantee management stated
that under the contract no LSC funds would be transferred to the Justice Center.
In addition, the grantee's staff in Richmond will perform intake services and refer
clients to the Justice Center's Richmond office.  The grantee's management stated
that non-LSC funds would finance all intake services pertaining to clients referred
to the Justice Center.
The grantee also plans to sublease part of its space in its Richmond office to
the Justice Center.  The OIG was provided the terms and conditions of the
sublease.  The documentation indicated that the grantee will receive fair market
rent for the space.  The planned configuration of the subleased space will provide
for the (1) physical separation of the grantee and the Justice Center; and (2)
distinguish the two organizations from each other.  At the time of our visit the
Justice Center had not moved into the space it planned to sublease and the OIG
could not evaluate interaction between the two organizations.
The OIG review of the proposed contract and lease documentation and
interviews with grantee management did not identify any planned ventures
involving the sublease that could result in the grantee subsidizing the Justice
Center.
BACKGROUND
The grantee is a nonprofit corporation established to provide legal services to
indigent individuals who meet eligibility guidelines.  About 77 percent of all cases
closed by the grantee in 2000 related to family law, housing issues, or consumer
matters.  The grantee is headquartered in Richmond, Virginia.  Branch offices are
located in Charlottesville and Petersburg, Virginia.  At the time of our visit, the
grantee had a staff of forty, including eighteen attorneys.  The grantee received
total funding of about $1.41 million during their most recent fiscal year, which
ended December 31, 2000.  LSC provided about $528,000, or about 37 percent
of the total funds received by the grantee during that year.  LSC is providing about
$1.03 million to the grantee during 2001.
Prior to 2001 the grantee serviced clients in the metropolitan Richmond
area.  Effective January 1, 2001, the grantee began servicing clients in
Charlottesville and Petersburg areas previously serviced by two different LSC
recipients unrelated to each other or to the grantee.  As a result, LSC funds
pertaining to the Charlottesville and Petersburg areas for 2001 are being distributed
to the grantee.  The two former LSC recipients functioned as sub-grantees of the
grantee between January 1 and June 30, 2001.  The former LSC recipient in
Charlottesville merged with the grantee effective July 1, 2001.  Most of the staff
of the former LSC recipient in Petersburg began working for the grantee effective
July 1, 2001.
Grantees are prohibited from transferring LSC funds to another person or
organization that engages in restricted activities except when the transfer is for
funding PAI activities.  In these instances the prohibitions apply only to the LSC
funds that were transferred to the person or entity performing within the PAI
program.  Grantees must also maintain objective integrity and independence from
organizations that engage in restricted activities.
OBJECTIVES, SCOPE, AND METHODOLOGY
This audit assessed whether the grantee complied with requirements
established in 45 CFR Part 1610 relating to the transfer of funds to other
organizations and program integrity standards.
Our review covered the period January 1, 2000 through September 30,
2001.  The OIG began this audit work in early October 2001 and visited the
grantee's offices in Richmond, Charlottesville, and Petersburg, Virginia, during the
period October 15-25, 2001.  At LSC headquarters in Washington, DC, we
reviewed materials pertaining to the grantee including its Certifications of Program
Integrity, audited financial statements, grant proposals, and recipient profile.  OIG
staff discussed issues relating to the grantee with LSC management officials.
During the on-site visit, the OIG interviewed and collected information from
the Executive Director, case handlers, and other staff.  Another legal services
provider, Legal Aid Justice Center, was located in the same building as the
grantee's offices in Charlottesville and Petersburg.  The OIG interviewed officials
with the Justice Center, including the Executive Director.  We ascertained whether
the grantee's employees were generally knowledgeable regarding the guidelines set
forth in Part 1610.  The audit included an assessment of the grantee policies and
procedures applicable to the transfer of funds to other organizations and program
integrity requirements.
The OIG gained an understanding of the client intake process utilized by the
grantee.  We identified the grantee's controls regarding its oversight of its Private
Attorney Involvement program.
The OIG identified and reviewed 40 cases that had been filed in court to
determine if the grantee had engaged in a restricted or prohibited activity.  Most
cases were discussed with the Executive Director or an attorney employed by the
grantee.
The OIG reviewed the grantee's financial accounts for vendors including
contractors, employees, and consultants.  From the 686 vendors identified in the
grantee's 3 Master Vendor Lists, we judgmentally selected 166 vendors and
examined 100 percent of the activity.  We reviewed 680 transactions totaling over
$807,000.
The OIG assessed the process used by the grantee to allocate direct and
indirect costs to LSC and non-LSC funds.  Policies and procedures relating to
payroll and timekeeping were evaluated.  The grantee's employees were
interviewed to determine their understanding as to which fund they should charge
their time relative to case handling.
All agreements between the grantee, and other organizations and individuals,
were requested.  The OIG reviewed all materials provided including grant funding
instruments, leases, and contracts.
We performed this audit in accordance with Government Auditing Standards
(1994 revision) established by the Comptroller General of the United States and
under authority of the Inspector General Act of 1978, as amended and Public Law
106-553, incorporating by reference Public Law 104-134.
APPENDIX I
GRANTEE'S COMMENTS ON DRAFT REPORT
PDF 45K
APPENDIX II
OIG STAFF RESPONSIBLE FOR THE AUDIT AND THE REPORT
Michael Griffith (Auditor-in-charge)
Anthony M. Ramirez
Abel Ortunio
David Young>
URL: http://www.oig.lsc.gov/reports/0203/447030.htm